                              Closeout for M98010003


   The subject1 submitted a proposal2 that was alleged to have plagiarized
material that had been taken from an NSF grant.3 Our investigation report and
the NSF Deputy Director's letter reflecting his decision constitute the closeout
for this case.


cc: Integrity, IG




   1   (footnote redacted).
   2   (footnote redacted).
   3   (footnote redacted).


                                  Page 1 of 1
                         N A T I O N A L SCIENCE FOUNDATlOE
                                4201 WILSON B O U ~ E V A R C
                              ARLINGTON, VIRGINIA 2223,




    OFFICE OF M E
                                            March ' 2 2 , 2000
   DEPUTY DIRECTOR


 CERTIFIED MAIL --RETURN RECEIPT REQUESTED




 Re:   Notice of Misconduct in Science Determination
 Dear Dr.
In November, 1997, you submitted a proposal to the Division of
                        at the National Science Foundation
entitled
                        - . AS documented in the attacnea
Investigative Report prepared by NSF's Office of Inspector
General (OIG), your proposal contained plagiarized text from an
NSF-funded proposal.
Scientific Misconduct and Proposed Sanctions
Under NSF1s regulations, umisconductn is defined to include
81plagiarism,or other serious deviation from accepted practices
in proposing, carrying out, or reporting results from activities
funded by NSF." 45 CFR. 8689.1 (a).
Your proposal contains verbatim text from an NSF-funded
proposal1. You acknowledge that you copied verbatim text from
the proposal without proving proper attribution. By submitting a
proposal to NSF that copies the ideas or words of another without
adequate attribution, as described in the Investigation Report,
you misrepresented someone else's work as your own. This
constitutes plagiarism as well as a serious deviation from
accepted practices within the scientific community. I therefore
conclude that you committed misconduct in science under NSF1s
regulations.
NSF's regulations establish three categories of actions (Group I,
11, and 111) that can be taken in response to a finding of
misconduct. 4 5 CFR §689.2(a). Group I actions include issuing a
letter of reprimand conditioning awards on prior approval of

          The proposal was entitled
                                                                    I
                                                                    I
 particular activities from NSF; and requiring certifications on
 the accuracy of reports or assurances of compliance with
 particular requirements. 45 CFR S 6 8 9 . 2 (a)(1). Group I 1 actions
 include restrictions on designated activities or expenditures;
 and special reviews of requests for funding. 45 CFR
 8689.2 (a)(2). ' Group I11 actions include suspension or
 termination of awards; debarment or suspension from participation
 in NSF programs; and prohibitions on participation as NSF
 reviewers, advisors or consultants. 4 5 CFR 5 6 8 9 . 2 (a)( 3 ) .
 In deciding what response is appropriate, NSF has considered the
 seriousness of the misconduct, whether it was deliberate or
 careless; whether it was an isolated event or part of a pattern;
 and whether the misconduct affects only certain funding requests
 or has implications for any application for funding involving the
 subject of the misconduct finding. See 4 5 C . F . R . 5689.2(b).
The plagiarism is serious because it appeared throughout your
proposal and constituted a substantial portion of the proposal.
However, a mitigating factor is that this was an .isolated
incidence of plagiarism rather than a pattern of behavior. In
addition, you obtained a copy of the grant through legitimate
channels. Finally, you fully cooperated in the investigation and
appear to be genuinely remorseful about your conduct.
                    has already taken several steps to address
your misconduct, including the imposition of a three-year
assurance requirement and no salary increase for a year. I,
therefore, take the following action:
   If you submit any documents to NSF in connection with an NSF
proposal or award within three years from the date of this
letter, you must simultaneously submit a copy of the document
along with a separate written certification to the Office of
Inspector General, Associate Inspector General for Scientific
Integrity, 4201 Wilson Boulevard, Arlington, Virginia.22230. The
certification shall state that you have reviewed NSFts Misconduct
in Science Regulation ( 4 5 C.F.R. Part 689) and that the document
contains no plagiarized material.
   For the same time period, if you submit a document to NSF in
connection with an NSF proposal or award, you must ensure that
your Department chairperson or Dean simultaneously submits an
assurance to the Office of Inspector General that, to the best of
that person's knowledge, the document does not contain any
plagiarized material.
Finally, in addition to the above actions, you have agreed to
teach a course without pay at your University on ethics in
scientific research. Please provide the Office of In~pector
General with a copy of the course outline and written
verification from your Department chairperson or Dean that you
actually taught the course to students.
P r o c e d u r e s ~ o v e r n i n qAp~eals

U n d e r N S F i s regulations, you have 30 days after receipt of this
letter to submit an appeal of this decision, in writing, to the
Director of the Foundation. 45 CFR S689.9 (a). Any appeal should
be addressed to the Director at the National Science Foundation,
4201 Wilson Boulevard, Arlington, Virginia 22230. For your
information we are attaching a copy of the applicable
regulations. If you have an questions about the foregoing,
please call Lawrence Rudolph, General Counsel, at (703) 306-1060.

                                               Sincerely,


                                               Joseph Bordogna
                                               Deputy Director

Enclosures
   CONFIDENTIAL




NSF OIG Investigation Report


     September 23, 1999


 OIG Case umber M98010003
       REPORT OF INVESTIGATION INTO AN ALLEGATION
               OF MISCONDUCT IN SCIENCE

                                             Surnrnary
    The Office of Inspector General (OIG) has concluded that the subject' plagiarized
from a National Science Foundation (NSF) grant2 into a proposal3 he submitted t o
NSF. The subject's university conducted a n inquiry and investigation into the
allegation, and found the subject committed plagiarism, and hence, misconduct in
science. The subject has acknowledged his responsibility for the plagiarism. We
concur with the University's finding.
    We recommend that NSF find that the subject committed misconduct in science
and take the following actions a s a final disposition in this case. First, NSF should
send a letter of reprimand to the subject informing him that NSF has made a
finding of misconduct in science against him. Second, for 3 years from the final
disposition of this case, NSF should require the subject to submit a certification to
OIG that any documents the subject submits to NSF contain no plagiarism. Third,
for the same period, NSF should require the subject to provide OIG a copy of the
University assurance requiring his Department Chair or Dean to state that the
subject's NSF proposals and associated documents contain no plagiarism. Fourth,
in lieu of debarment, we recommend NSF work with the subject (and his Chair) to
refine and implement his plan to teach a science ethics course a t his university.



                                          Background
    I t was alleged that the subject's proposal (Tab 1)was based on the same basic
ideas put forth in the grant (Tab 2) and plagiarized text in the grant. Our
comparison of the subject's proposal to the grant shows that the subject's proposal
contained approximately 136 lines of text that appeared to have been copied from
the grant. The copied text appeared throughout the proposal, including most of the
text in the Project Summary, Development Plan, and Equipment Request, with only
minor modifications. The subject told us he used the grant, which he obtained from
its PI, to prepare his proposal,4 but failed to reference it. Therefore, we concluded
the allegation had sufficient substance to proceed to a n investigation, and we
referred it to the University.



     (footnote redacted).
   2 (footnote redacted).
   3 (footnote redacted).
   4 Our 7/13/98 letter to the subject, and his 7/31/98 response, are under Tab 3.



                                           Page 2
                          University's I n a u i r v a n d ~ n v e s t i g a t i o n
    The University's policy required it to conduct a n inquiry into any allegations of
misconduct before proceeding to an investigation. The Deans who conducted the
inquiry concluded that there was sufficient substance to the allegation to proceed to
a n investigation.
    The University asked a n independent scientist (the investigator)s to help with
the investigation, particularly to research the possibility of other plagiarism by the
subject. He analyzed the allegation of plagiarism (which he called Issue 1)7 w,ith
respect to the act and intent', and whether the subject's alleged plagiarism was part
of a pattern of copying others' text (which he called Issue 2).as9


                                    Allegation of Plagiarismlo
    The investigator noted that in the subject's response'to. OIG, he acknowledged
that he received a copy of the grant and used it to prepare his proposal.11 The
subject acknowledged and signed a statement for the University that all of the work
in the proposal was not original and that his signed certification on page 2 of the
NSF Cover Sheet was not true.12
    The subject toldus he had been careless and his actions lacked intent.13 The
investigator dismissed the subject's arguments a s not relevant. He concluded that
even if the subject had included a reference to the grant in his proposal, "the extent
of the unattributed text is too great to be accounted for by a single reference,"ld and
that the subject's "relevant 'intent' was to use large segments of the text of [the
grant] with no specific attribution."l~His conclusion was
         The un-cited use of verbatim text taken from [the grant] and used in
         [the proposal] by the [subject] without proper attribution of any sort
         constitutes plagiarism. This is misconduct in science under the NSF
         definition. The preponderance of the evidence establishes that the
         [subject] committed misconduct in science as alleged in Issue 1.16




   5 (footnote redacted).
   6 (footnote redacted).
   7 Tab 4, Attachment 2, pp. 5-8.
   8 Ibid.,pp. 9-19.
   9 The University's investigation report, including the investigator's report, is under Tab 4.
   10 Issue 1.
   11 Tab 4, Attachment 2, pp. 5, 8.
   12 Ibid.,p. 8.
   13 Tab 3.
   l4 Tab 4, Attachment 2, p. 8.
   15   Ibid.
   16   Ibid. Bold emphasis omitted from quotation.

                                             Page 3
                                      Evidence of a Pattern17
   To assess whether a pattern of plagiarism existed, the investigator compared the
subject's proposals and publications with publications cited in his proposals and a
large number of abstracts identified as "related by MEDLINE.ls.19 The investigator
did not find other instances of plagiarism and therefore concluded that "the
preponderance of the evidence showed no pattern of plagiarism."zo


                                   The University's Conclusion
   The University concluded the subject committed misconduct in science. Its
report said the "conclusion [wals based on the finding of plagiarism in the NSF
grant proposal and the gross negligence of [the subject] [wals neither citing [the
grant] in the text nor in the reference list."zl The report stated that the subject
completely cooperated with the investigation, admitted the plagiarism, and took full
responsibility for the action.
    The University imposed two sanctions upon the subject:
    1) For a three-year period, assurance of original work for all NSF
         proposals submitted by [the subject]. An administrator of the
         University, either the chair of the [subject's department] or the Dean of
         Academic Affairs, would provide this assurance.
    2) For a one year period, no increase in salary. . . : [Tlaking into account
       forgone salary as well as forgone benefits associated with the forgone
       salary, the cumulative financial penalty amounts to approximately
       $30,000.22



                                        OIG's Assessment
   We believe the University's report and attachments represent a fair, accurate,
and thorough analysis of the allegation.




    17 Issue 2.
    18The National Library of Medicine's MEDLINE can search for publications by authors or titles,
and it can identlfy related articles.
   19 See Tab 4, Attachment 2, p. 9 for a discussion of the technique, pp. 9-18 for a discussion of the
documents identified and examined, and the Appendixes for the details of the specific documents.
   20 Tab 4, Attachment 2, p. 19.
   21 Tab 4, p. 6.
   22 Tab 4, p. 2. The University's sanction letters immediately follow the report (Tab 4).



                                            Page 4
                                       Misconduct In Science
    NSF defines misconduct in science, in relevant part, as "[flabrication,
falsification, plagiarism, or other serious deviation from accepted practices in
proposing, carrying out, or reporting results from activities funded by NSF" (45
C.F.R. § 689.1(a)(l)). A finding of misconduct in science against a subject requires
that the subject both committed a bad act and did so with a level of culpable intent
that justifies taking action against the subject. In order to make a finding of
misconduct, the subject must have acted, minimally, with gross negligence. NSF's
standard of proof in evaluating each element of misconduct in science is a
preponderance of the evidence.
                                                  The Act
   The subject admitted that he copied verbatim text from the grant into the
proposal he submitted to NSF without attribution or distinction.23
                                                   Intent
    We believe the subject acted culpably when he copied 136 lines without
distinction and attribution from the grant into his proposal. Copying is inherently a
knowing activity, and the extent of the subject's copying without attribution or
distinction, together with how well that material was integrated into his proposal,
supports the conclusion the subject acted knowingly. We concur with the
investigator that the subject's intention was to use the grant's text without
attribution.
                                               Seriousness
   By portraying the work of another scientist a s his own, the subject seriously
deviated from the accepted practice, not only in his scientific community, but also in
the wjder scientific and engineering community. What NSF expects from scientists
and engineers who submit proposals is clearly spelled out in the Grant Proposal
Guide, which contains the forms and instructions used by PIS to submit proposals to
NSF:24
        NSF expects strict adherence to the rules of proper scholarship and
        attribution. The responsibility for proper attribution and citation rests
        with authors of a research proposal; all parts of the proposal should be
        prepared with equal care for this concern. Serious failure to adhere to
        such standards can result in findings of misconduct in science.
    Although the scientific community routinely states that copied material should
be appropriately cited and distinguished,25 the subject included no references or
citations to the grant from which he copied substantial amounts of verbatim text

    23 We use distinction to indicate a method, such as indentation or quotation marks, that is used
to differentiate copied material from original material in a document.
    24 NSF 95-27, Section A.3. and Section B, p. 1.
    25 See, e.g., M.C. LaFollette, S t e a l i n g I n t o P r i n t Fraud, Plagiarism, artd Misconduct i n
Scientific Publishir~g(Univ. of C A Press 1992) pp. 48-53; and references therein.

                                              Page 5
into his proposal without distinction. During the University's investigation, he
agreed that he falsely certified on the NSF Certification Page to the originality of
the proposed work.


                       Conclusion R e g a r d i n g Misconduct In Science
   We concur with the University's finding that the subject committed plagiarism,
and hence misconduct in science. We conclude that the subject acted knowingly
when he copied material from the grant without distinction or attribution. We
conclude he committed plagiarism-a serious deviation from accepted practices and
misconduct in science.


                                     Subiect's Response
    The subject responded to the draft investigation report by agreeing with three
out of the four recommendations we made. He asked that we reconsider our
recommendation for a one year debarment. He argued that his grants are primarily
for the support of students and, therefore, a debarment would "hurt pis] students
and the department a s much a s it would hurt Fim]."26 He reiterated that the
University Investigator found no evidence of a pattern of plagiarism, and that he
had received the copied material from its author with the author's knowledge of his
intended use of that material, not from confidential peer review.
   The subject thought that the three-year certification and assurance would
protect NSF's interests, and proposed teaching a one-semester course in science
ethics to students as "community service" in lieu of debarment. He has the
permission of his Department Chair to teach the course next fall. He said he will
teach this course in addition to his normal teaching load and will not be paid to
teach it. He included a draft syllabus (Tab 5).


                                Recommended Disposition
   Under 45 CFR § 689.203) of NSF's misconduct in science and engineering
regulation, when deciding what actions are appropriate when misconduct is found,
NSF officials must consider the seriousness of the misconduct, the intent with
which the subject acted, any evidence of a pattern, and finally, its relevance to other
funding requests or awards involving the university or the individual.
   We conclude the subject plagiarized, that this behavior was a serious deviation
from the practices of both the subject's research community as well as the broader
scientific community, and that it violated NSF's expectation of how proposals
should be prepared.


                                                                     I
   26   Tab 5, p. 1.

                                         Page 6
    We believe the certification action recommended below, in conjunction with the
University's required assurance, are appropriate actions for NSF to take in this
case. In combination, we believe it ensures that NSF's interests are protected. In
addition, we believe the subject made cogent points regarding the nature of his
awards and the disproportional impact of debarment on his students and
department. The subject told us that his research is generally too applied to be
eligible for NSF research awards and, therefore, focuses on proposals to support his
students. The subject's current award,^^ on which he is co-PI, is a Graduate
Research Traineeship. The subject told us that because of the PI's health problems,
he has taken over most of the responsibility for the students. He told us if he were
debarred, it would be difficult to select an alternate PI because his research is
unique within the (small) department. Additionally, he plans to submit an
Integrative Graduate Education and Research Training proposal in the winter,
which would not be allowed if he were debarred.
    We feel the'subject's offer, to teach a n ethcs course to the University's students,
is consistent with NSF's goals of educating the next generation of scientists, who
can benefit from the subject's experience, and should be pursued.28 We therefore
recommend?
1. NSF send a letter of reprimand to the subject informing him that NSF has made
   a finding of misconduct in science against him.30
2. NSF, for 3 years from the final disposition of this case, require the subject to
   certify that any documents he prepares and submits in connection with a n NSF-
   supported project contain no plagiarism, i.e., the documents are either entirely
   the work of the subject or they distinguish others' work and contain the
   appropriate citations and references.31
3. NSF, for 3 years from the final disposition of this case, require the subject to
   provide to us a copy of the assurance required by his University. The assurance
   should be from the subject's Department Chair or the Dean, and state that to the

    27 (footnote redacted).
    28 However, there are some points, associated with ths recommendation, that should be worked
out. We note the subject's plan is a rough outline and that prior to implementing the
recommendation (# 4), NSF should receive a detailed plan from him that requires the subject to
provide documentation, such as a University enrollment list andlor student evaluations, verifying
the course was taught and attended by students. Because t h s recommendation necessarily involves
cooperation with the University, we suggest that NSF also coordinate with the Chair of the subject's
department in addition to the subject.
    29 A mitigating factor in our recommendations is that the subject completely cooperated with the
University (including providing all the documents requested for the search for evidence of a pattern
of plagiarism) and us in resolving this matter, and appears genuinely remorseful about his action. I n
his response to us (Tab 3), he said he was "terribly embarrassed by this situation. [The grant's PI's]
works should have been loudly praised rather than slighted. Please extend to h m my deepest and
most heartfelt apologies." The investigator noted the subject's "demeanor was open and contrite,"
and he found the subject's responses to questions credible.
    30 This is a Group I action ($ 689.2(a)(l)(i)).
    31 This is a Group I1 action (§ 689.2(a)(2)(ii)).



                                           Page 7
   best of his or her knowledge, the subject's work associated with any NSF-
   supported publication or submission to NSF does not contain any plagiarized
   materia1.32
4. NSF accept the subject's offer to teach, without pay, a course for students on
   ethics in scientific research.
The subject's certification, assurance, and course information should be sent to the
Associate Inspector General for Scientific Integrity for retention in OIG's
confidential file on this matter.




  32   This is a Group I action ($ 689.2@)(l)(iii)).

                                              Page 8
